U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jason Laut v. United States, No. 19-1362
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2020.
The government’s response is now due, after two extensions, on September 11, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 11, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1362
LAUT, JASON
USA

JOHN CHRISTOPHER KOREVEC
KIRKLAND & ELLIS LLP
555 SOUTH FLOWER STREET
SUITE 3700
LOS ANGELES, CA 90071
213-680-8343
JOHN.KOREVEC@KIRKLAND.COM

